HHS/OIG-Audit--"Audit of Boston University's Procurement Practices for Federally Funded Equipment, (A-01-99-04001)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Boston University's Procurement Practices for Federally Funded Equipment," (A-01-99-04001)
May 12, 1999
Complete
Text of Report is available in PDF format (39 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of the procurement practices for federally funded capital equipment
at Boston University (University). The objective of this audit was to determine whether the practices in place provide
for economic and efficient procurement of federally funded equipment. Specifically, our audit focused on (1) the University's
selection process for the vendor; (2) justification for the basis of the award; and (3) the rationale for any purchases
not made directly from the equipment manufacturer.
Our audit covered the period July 1, 1997 through June 30, 1998. We judgementally selected 3 0 purchase orders for review
based on factors including the dollar value of the asset purchased and corresponding amount charged to a federal grant.
Our sample included the purchase of 57 assets charged to federal grants in the amount of approximately $1.8 million. We
found the University's practices provide for the economic and efficient procurement of federally funded equipment.